                                                                                    rage   I   or 3




 MEMORANDUM

 Date:           November 17, 1998

 To:             File,   J % O ? ~ 3/
 From:

 Through:   ,                                        rge, Investigations Section.

 Re:




                                                              -
 Background

 On 30 September 1998, received a telephone call from -formerly
 employed b y m a s a Marine Science Technician.             a c c u s e d f endaging in
 a pattern of wrongdoing involving radioactive                       (1) radioactive waste
 stored closely to food items; (2) improper documentation of activity levels and disposals;
 and (3) firing employees who blow the whistle on these activities.            will still be
 involved in the program as a grad student, and wishes to remain anonymous. Archer
 stated that he did not voluntarily end his employment w i t h l u t s a i d l d him
 his work was "inadequate."


 Investigation

 While in Christchurch, I interviewed separately (on 12 October 1998) two of th
 employees named by n-            his 30 September 1998 telephone allegatio?:
          Manager of Hazardous and Solid Waste, and
 Laboratory Science.

 Radioactive waste stored closely to food items.

I1I)stated that o       l l o w s International Maritime Dangerous Goods and DOT
regulations for transporting and storing radioactive waste on-board ships. Before any
waste is loaded on the ship it is noted on the stow plan, The stow plans are reSiewed by
~          E (Safety Hand Environmental Health), I a s t e subcontractor (Philips
                                          -
                                                          ASA   I.   -loactivity ~llegation.Closeout
                                                                                         ~ a g k2 of 3


Environmental), and the captain of the vessel (the captain can impose stricter guidelines
than are required by IMDJ or DOT). -mitted             that mistakes can occur.

                              ported that waste had been stored closely to food items in a
                   "                   and determined that the isotope involved did not
have to be stored separately and away from food. i t r e p was distributed, ;as was
r e p o r t .

Improper documentation of activity levels and disposals.

            escribed the process for accepting and documenting radioactive waste.
            description was confirmed by             When es-               waste .from a
grantee,
-         they verify that the amount use an t e amount o waste noted on the logs
equal the total material - they do not monitor the amount of radioactive material used,
and they do not verify the amount of waste. If the two amounts do not equal the total
(many times the amounts do not equal the total because of mathematical or transposition
errors), a discrepancy report is generated, the waste is not accepted b      n      d it is
returned to the grantee. At this point, the grantee would probably change the amounts
and resubmit to                                   that it is well-known that figures are
routinely                               not supposed to make changes. For a period of
                                                              held that had to be tleared.
                                                             made the changes that were
required to reconcile the logs.

An automated, electronic system is now in place - RadTrack - which will alleviate many
errors.

         -
Firing employees who blow the whistle on these activities.

                    hether, in general, there had been any firings over improper waste
handling or ocumentation, and she volunteered that a guy,
                                                             ht
been fired around the time the food/waste was stored together, but t at he was not have
                                                                                   fired
for that reason. She said there had been performance problems with him (he didn't take
direction, was "high maintenance," and always made a mountain out of a mole hill).

I asked          specificially about the woman                                 e             w of
the incident, and told me the woman's name

I contacted                       Manager of Human Resources. She told me that
                                                      most of the past 3-1R          (6/95-
                                                 y offered another year's contract but she
                                                         file and said there is nothing to
                                                          for reporting incidents involvin
radioactive materials to NSF. She remembered discussing the incident with&
and said that-ld           her she did not feel that she had the proper training io would
not go into the rad van.                     that she remembers that              t a memo
directly to NSF, and tha                as rold th'at there was a

Subsequently,                                      spill response procedures are being
                                                    been provided with guidance for spill
report format and distribution.                 emo to NSF re: the incident did not follow
the required format and distribution.


Findings

I questione~                    P Safety and HealthPOfficer) on
up via e-mail.     e essentially confirmed all I had been told by
Based on his response, consider the allegation closed. There
transporting, storing and using                         and waste, and for alerting the
appropriate personnel (NSFIOPP                               are problems. There is no
indication that employees have                                  for alerting the appropriate
personnel to potential or actual problems. NSF/OPP is aware of the procedures and
conducts spot checks on them; when problems are identifie-notified.
                                          P
This allegation is closed.
